                               SENSITIVE BUT UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


ISP-I-14-18A                                   Office of Inspections                                        July 2014




                             Inspection of
                       Embassy Kampala, Uganda




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                               SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2012 by the Council of the Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

      Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

      Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

      Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instances of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

        In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate,
circulated, reviewed, and compiled the results of survey instruments; conducted on-site interviews;
and reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                        i
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Robert B. Peterson
                                              Assistant Inspector General for Inspections




                                        ii
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


                                 Table of Contents
Key Findings                                                                           1
Context                                                                                2
Leadership                                                                             3
  Mission Priorities                                                                   3
  Country Team and Interagency Relations                                               4
  Civil-Military Engagement and the National Security Decision Directive 38 Process    4
  Rightsizing                                                                          5
  Professional Development and Mentoring of First- and Second-Tour Officers            6
Policy and Program Implementation                                                      7
  Advocacy and Analysis                                                                7
  Public Diplomacy                                                                     8
  Broadcasting Board of Governors                                                     10
  Consular Affairs                                                                    11
Resource Management                                                                   13
  Financial and Human Resources                                                       13
  Management Operations                                                               15
  Financial Management                                                                16
  General Services                                                                    17
  Real Property                                                                       18
  Facilities Management                                                               19
  Information Management                                                              19
Quality of Life                                                                       23
  Community Liaison Office                                                            23
  Schools                                                                             23
  Health Unit                                                                         23
  American Employee Recreation Association                                            23
Management Controls                                                                   24
List of Recommendations                                                               25
List of Informal Recommendations                                                      28
Principal Officials                                                                   29
Abbreviations                                                                         30




                                      iii
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Key Findings
      The embassy is bursting at the seams because of staffing growth in 2010–2012. It faces
       several major challenges: insufficient secure office space; responses to unanticipated
       shocks from regional conflict, such as the recent conflict in South Sudan; and
       implementation of high-level Washington initiatives that often require more staffing.

      The embassy’s general services office and warehouse facility is overcrowded and lacks
       adequate infrastructure; long-standing deficiencies require action.

      The embassy needs to cap U.S. direct-hire positions and avoid a net increase in staffing
       levels until it secures suitable and secure workspace or obtains the appropriate waivers.

      The embassy’s projection of 128 new desk positions by FY 2018 depends on construction
       of a new office building, which OBO estimates is not likely even to begin until FY 2015.

      Embassy Kampala has become an important platform for pursuing U.S. policy interests in
       East Africa, and the embassy has facilitated Uganda’s contributions to regional security.

      The Ambassador and deputy chief of mission received high scores on OIG surveys for
       vision, awareness, coordination, and engagement, which were also reflected in OIG
       interviews with embassy staff.


        All findings and recommendations in this report are based on conditions observed during
the on-site review and the standards and policies then in effect. The report does not comment at
length on areas where the OIG team did not identify problems that need to be corrected.

The inspection took place in Washington, DC, between January 6 and 30, 2014, and in Kampala,
Uganda, between March 1 and 19, 2014. Ambassador Lawrence Butler (team leader), Kenneth
Hillas (deputy team leader), Paul Cantrell, Ken Moskowitz, James Norton, John Philibin, Lavon
Sajona, Scott Thayer, and Timothy Wildy conducted the inspection.




                                       1
                          SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Context
        Uganda has experienced nearly three decades of domestic stability, except in northern
areas. President Museveni’s National Resistance Movement took power in 1986. Irregularities
marred his reelection in 2011, and he is expected to run again in 2016. Uganda has never
experienced a peaceful transition of political power, and civil society does not effectively hold
government accountable. Uganda’s record on democracy, human rights, and anticorruption is
poor, but it has become an important force for regional stability in East Africa. It contributes to
the African Union Mission in Somalia, leads regional efforts against the Lord’s Resistance
Army, and has mediated talks between the Democratic Republic of the Congo and the M23
rebels.

        The passage of Uganda's Anti-Homosexuality Act in early 2014 prompted Washington to
reassess the bilateral relationship, including U.S. foreign assistance, which was taking place
during the inspection. Bilateral security cooperation has included peacekeeping training for
Ugandan forces in Somalia and Ugandan support for the 2013 evacuation of U.S. diplomats from
South Sudan.

        Economic growth over the past decade has averaged 6 to 7 percent, with inflation in the
single digits, and the percentage of the population in poverty dropped by half. Uganda's
population is projected to grow from 35 million to more than 60 million over the next 20 years,
threatening to erode and even reverse development progress. The economy provides one job for
every 40 new entrants to the job market. By the end of this decade, Uganda may be an oil-
producing country, which would significantly raise government revenue but could also
exacerbate corruption. U.S. exports to Uganda in 2012 totaled $100 million, half of which
consisted of aircraft and machinery.

         HIV/AIDS prevalence rates declined in the early 1990s to less than 7 percent, one of the
lowest rates in Africa, but has begun to rise again. The U.S. Agency for International
Development’s (USAID) FY 2013 assistance budget for Uganda was $67.5 million for
development, $11 million for Food for Peace, and $84.95 million for the Global Health Initiative.
The Department of State (Department) also provided $316.14 million for the Global Health
Initiative, $190,000 in foreign military financing, and $522,000 in international military
engagement and training. International narcotics control and law enforcement funding of
$600,000 went directly to Uganda.

       With 712 employees, the embassy is the second largest in Sub-Saharan Africa and
includes 147 U.S. direct hires compared to 91 in 2007. Other departments and agencies
represented in the embassy include USAID, the U.S. Department of Defense (DOD), the Centers
for Disease Control and Prevention (CDC), the Federal Aviation Administration, the U.S.
Department of the Treasury, and the Peace Corps. The embassy chancery accommodates all
employees and has annexes in Gulu (CDC) and Entebbe (CDC and DOD), which are 7 hours
away and 90 minutes away, respectively, by vehicle. In addition, the general services office and
warehouse facility is located 6 kilometers from the embassy compound, and it has more desks
than some smaller embassies in Africa.


                                         2
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Leadership
        In performing this inspection, the OIG team conducted three confidential surveys of
mission staff, focused on the quality of leadership and supervision; security; overall strengths
and weaknesses of the mission; the quality of embassy services; and possible waste, fraud, and
abuse. The team interviewed all Department direct-hire employees, a large majority of locally
employed (LE) professional staff, and many from other agencies. The team observed meetings,
including those at the senior level, and a variety of activities. It examined documents relating to
embassy policies and programs and assessed embassy reporting. Before traveling to Burundi, the
team interviewed personnel throughout the Department and at six other government agencies
with interests in or perspectives on the embassy. The judgments in this report are based on those
interviews, documents, surveys, and observations and reflect the conclusions of an inspection
team with substantial experience covering all functions of the Department at overseas missions
and in Washington.

        Embassy Kampala has become an important platform for pursuing high-priority U.S.
policy interests in East Africa, such as promoting regional security and combating pandemic
diseases. The overall size of the embassy, including both U.S. direct-hire and LE staff members,
has nearly doubled since the 2007 OIG inspection. This increase reflects the expanded U.S.
bilateral and regional engagement.

        The Ambassador and deputy chief of mission (DCM) enjoy the full confidence of section
and agency heads, receiving high scores on OIG surveys for vision, awareness, coordination, and
engagement. The Ambassador is accessible, provides clear direction, listens well, and works
collegially with the embassy staff, which contributes to a cohesive interagency team.

        Consistent with the Department’s 2010 Quadrennial Diplomacy and Development
Review, embassy planning is a whole-of-government effort. Five U.S. agencies work to
strengthen democracy, improve health and education, promote sustainable economic growth, and
provide support for peace and security, both in Uganda and regionally.

        The front office approves almost all reporting telegrams, a time-consuming activity. The
front office could delegate responsibility for approval of nonsensitive reporting telegrams
without risk, and this would contribute to the professional development of the political/economic
section chief. Reporting messages that may require front office approval involve meetings of the
Ambassador or DCM, policy recommendations, or issues Washington may consider sensitive.

       Informal Recommendation 1: Embassy Kampala should establish criteria for reporting
       messages requiring the approval of the Ambassador or deputy chief of mission and
       delegate approval authority to section heads for other reports.

Mission Priorities

      The embassy’s Integrated Country Strategy has two major goals that provide a coherent
framework for collaboration among the embassy’s four major agencies: strengthening Uganda’s


                                        3
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

regional security role and supporting economic and governance development, which includes
addressing serious health challenges from HIV/AIDS and other infectious diseases.

        In its November 2013 rightsizing report submission, the embassy underlined the need for
sharply increased staffing by FY 2018—predicated on the construction of a new office building,
currently scheduled to begin in FY 2015—and assistance levels to support governance
programming that seeks to strengthen democratic institutions vital for a peaceful and transparent
electoral process. To this end, the embassy plans to commit resources to enhance the rule of law,
decentralize authority, and improve government services.

       The embassy is already bursting at the seams because of significant staffing growth in
2010–2012. It faces several major operational challenges: insufficient secure office space;
responses to unanticipated shocks from regional conflict, for example, providing support to the
embassy in Juba, South Sudan; and implementation of high-level Washington initiatives, such as
the Young African Leaders Initiative, that require increased staffing.

Country Team and Interagency Relations

        The Ambassador hosts weekly, biweekly, and monthly meetings. An expanded front
office country team meeting is scheduled monthly and is open to U.S. direct hires to attend;
however, the OIG team observed that the meeting had not taken place recently. A monthly all-
military meeting with the Ambassador took place only once in the past 6 months of 2013. In
addition, not all stakeholders participate in meetings where their responsibilities are discussed.
During the OIG inspection, the coordinator of the President's Emergency Plan for AIDS Relief
(PEPFAR) did not attend the daily senior staff meeting, at which PEPFAR was a topic of
discussion. The OIG counseled the embassy front office to review its recurring meetings with a
view to necessity and composition.

        The Ambassador selected the USAID program office director to coordinate preparation
of the Mission Resource Request and Integrated Country Strategy. The selection resulted in
cross-agency collaboration, with issue clusters spanning all mission elements.

Civil-Military Engagement and the National Security Decision Directive 38 Process

        Uganda is at the heart of the most significant regional security issues in East and Central
Africa. U.S. security cooperation and assistance totaled $167 million in FYs 2012–13 and funded
the training of 15,000 Ugandan soldiers. The Ambassador devotes significant time to working
with the U.S. Africa Command in managing Uganda’s emergence as an important American
partner in providing regional security. Since 2011, the embassy has required the U.S. Africa
Command to submit National Security Decision Directive 38 (NSDD-38) requests to regularize
and manage the large numbers of indefinite-stay temporary duty personnel based out of the
embassy. The Ambassador uses the senior Defense official/Defense attaché to manage embassy
support of growing U.S. military engagement in Uganda.




                                        4
                           SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

Rightsizing

         Since 2007, the embassy has added 147 U.S. direct-hire positions, an increase of 61
percent. Nearly all this growth came from the DOD and USAID in response to high-profile
initiatives1 and expanded security cooperation. The Ambassador and his current management
team have “tight-sized” the embassy to maximize use of space in the chancery, but International
Cooperative Administrative Support Services (ICASS) staffing levels have not kept pace with
the growth of other agencies. He also took steps to alleviate the current embassy overcrowding;
he requested U.S. Africa Command to initiate NSDD-38 requests to eliminate 10 positions,
reversing a 5-year trend of adding military personnel without commensurate increases in secure
space and ICASS staffing.

         The Ambassador received approval and funding from the Department’s Bureau of
Overseas Buildings Operations (OBO) to begin construction of a new office building in FY
2015. In its November 25, 2013, rightsizing submission, the embassy projected the need for 128
new desk positions by FY 2018, across all agencies, in addition to consolidating 218 staff
members from the general services office and CDC, who are now in nonsecure, noncolocated
facilities (see also the classified annex to this report).

        The embassy is not providing suitable and secure workspace for its employees. The 2007
OIG inspection report identified the need for improved work conditions at the general services
office and warehouse facility, and the Management section of this report addresses specific
shortcomings. (See also the classified annex to this report regarding the general services office
and warehouse facility.2) The embassy agreed in 2007 to relocate staff from the facility to the
embassy compound, but the number of employees working at that facility has more than doubled
as of March 2014. Between 2009 and 2012, the embassy accepted a large influx of USAID and
DOD personnel. These staffing increases thwarted the return to the chancery of the originally
identified general services staff and displaced even more general services personnel to the office
and warehouse facility.

        Since 2012, the embassy has worked to identify solutions and resources to improve
working conditions at the general services office and warehouse facility. In 2014, the embassy
made some work space improvements at the facility and was taking steps to transfer its
procurement unit from the general services office and warehouse facility to the chancery. The
Department recently approved the start of construction of a new embassy office building, which
OBO estimates will begin in FY 2015. This project will provide much needed secure office space
but will not be completed for several years.

        The OIG team stressed to the embassy front office and management team the seriousness
of the situation at the general services office and warehouse facility, the operational
inefficiencies from having ICASS personnel located far from customers, and the need to refrain
from establishing new positions pending completion of the new office building. Embassy

1
 PEPFAR and Feed the Future.
2
 See also OIG’s report, Audit of Department of State Compliance with Physical and Procedural Security Standards
at Selected High Threat Posts, Report No. AUD/SI-13-32, May 2013.

                                            5
                               SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

employees can expect to work in appropriate office space with equitable protection. To be
effective, a staffing freeze should include existing but unfilled NSDD-38 approved positions,
deferral of new NSDD-38 requests, and new but unfilled locally employed staff positions.
However, the embassy needs to fill at least a dozen locally employed ICASS position vacancies
to provide adequate administrative services.

Recommendation 1: Embassy Kampala, in coordination with the Bureaus of Overseas
Buildings Operations and Diplomatic Security, should cap U.S. direct-hire positions at the
existing level and avoid a net increase until it provides suitable and secure workspace or obtains
the appropriate waivers. (Action: Embassy Kampala, in coordination with OBO and DS)

Professional Development and Mentoring of First- and Second-Tour Officers

         The DCM actively engages with the embassy’s first- and second-tour (FAST) officers, of
which only 2 are from the Department and 10 are from USAID and CDC. The DCM shares
mentoring responsibility of the FAST officers with the USAID deputy mission director. The
embassy has an informal FAST professional development program that includes many of the
activities encouraged by the Department’s Director General,3 but no written, structured program
to provide continuity and manage expectations of newly arrived FAST officers exists. Many
FAST officers want professional development activities tailored to their different agency career
needs. Because it is not voluntary and has little substantive content, the front office special
assistant position, which is filled by FAST officers, has led to general dissatisfaction. The OIG
team counseled the DCM and FAST officers on how to make the FAST program more effective
and to adapt the special assistant rotational position.

        The protocol assistant is the only employee who manages the embassy's contact database,
although each section has an employee with access. These employees, however, do not have
training and therefore are not able to manage the contact listings on the database. The embassy
could manage its contact database more efficiently and effectively if an employee in each section
were trained to manage the database.

Recommendation 2: Embassy Kampala should require an employee in each section of the
embassy to take Foreign Service Institute course PK247, Contact Database Training, and to share
responsibility for managing the contact database. (Action: Embassy Kampala)




3
    14 STATE 19636: Mentoring the Next Generation.

                                            6
                               SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
Advocacy and Analysis

Political/Economic Section

         The political/economic section produces timely, well-drafted reporting cables on the key
political aspects of the bilateral relationship, including security cooperation, democratization,
and human rights. In the second half of 2013, the section drafted more than 90 political reporting
cables but only 20 reporting cables on economic, environmental, and energy issues. Uganda’s
economic growth and development are among the embassy's strategic goals and also are
important to Uganda’s political stability. The section does not convey to Washington consumers
some of the important economic information at its disposal. Less reporting deprives Washington
analysts of information on an economy in which the United States heavily invests with assistance
that is vital to sustaining social peace.

       Informal Recommendation 2: Embassy Kampala should create a reporting plan based
       upon its Integrated Country Strategy and the interests of Washington consumers.

        The section head, with the support of the DCM and Ambassador, has deemphasized
economic reporting in favor of commercial and investment promotion. The embassy has a
partner post agreement with the Nairobi office of the Foreign Commercial Service and an active
program of Gold Key services and meetings with U.S. companies seeking to do business in
Uganda. The Ambassador strongly supports U.S. commercial activities, for which he received
the Cobb Award for Initiative and Success in Trade Promotion in 2013.

        The section head is the formal supervisor of the section’s four LE staff members. In
actual practice, section officers informally task the section’s LE staff directly and without
coordinating those taskings with the section head. This arrangement has created confusion
among LE staff members regarding lines of supervision and performance expectations.

Recommendation 3: Embassy Kampala should reassess portfolio assignments in the
political/economic section and establish clear supervisory arrangements for its locally employed
staff members. (Action: Embassy Kampala)

Leahy Vetting

        The Leahy coordinator (the political/economic section’s office management specialist)
collaborates with the regional security office and the Office of Security Cooperation offices in
vetting Ugandan military and law enforcement personnel (887 cases in 2013) prior to receiving
U.S. training or in connection with contract employment. The coordinator has not codified and
cleared with the Department post-specific procedures for Leahy vetting and departs the embassy
in mid-2014. The Bureau of Democracy, Human Rights, and Labor encourages Leahy
coordinators, as a best practice, to create a post-specific Leahy vetting manual. Without such a
tool, the successor to the current coordinator may be less effective in implementing Leahy
vetting requirements.
                                        7
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 3: Embassy Kampala should establish written, post-specific
       Leahy vetting procedures and clear them with relevant Department of State offices.

Refugee Coordinator

        A refugee coordinator and a deputy have regional responsibilities for seven countries and
oversee a budget of $30 million (FY 2014), which includes U.S. bilateral and multilateral
contributions. The coordinator and deputy travel about half the time, and they work directly with
six other U.S. embassies. Uganda has 310,000 refugees, which is the highest number in Ugandan
history. The Ambassador chairs a committee of local embassies to coordinate resettlement of
Congolese refugees.

President's Emergency Plan for AIDS Relief

        The PEPFAR program in Uganda is the fourth largest in the world ($323 million in
FY 2013) and accounts for nearly half of all U.S. assistance to Uganda. Once a global leader in
combating HIV/AIDS, Uganda is now one of two Sub-Saharan African countries where infection
rates are on the rise. Factors contributing to this reversal include inefficiencies and pilferage in
the local medicinal supply chain and Ugandan Government underfunding of the health sector.

        The PEPFAR coordinator is a personal services contractor and does not have sufficient
authority over programs conducted by implementing partners. Six agencies conduct PEPFAR
programs, but several agency heads do not interact regularly with the PEPFAR coordinator,
leaving that to their staffs. Some agency heads sought to limit the coordinator’s position
description prior to the incumbent’s arrival. The OIG team observed the Ambassador engage
other agency personnel on PEPFAR programs without including the coordinator, and she is not
regularly included in senior staff meetings. The DCM recently began meeting on a weekly basis
with the coordinator.

Recommendation 4: The Office of the Global AIDS Coordinator, in coordination with the
Bureau of Human Resources and Embassy Kampala, should convert the President’s Emergency
Plan for AIDS Relief coordinator to a direct-hire position. (Action: S/GAC, in coordination with
DGHR and Embassy Kampala)

Public Diplomacy

        The section coordinates public diplomacy messaging for the embassy’s various agencies
but it has not submitted a public diplomacy implementation plan, as required by 13 State 138296.
The deadline for submitting such a plan to the Under Secretary for Public Diplomacy and Public
Affairs was October 31, 2013. A plan provides strategic guidance on section goals, programs,
and available resources and is especially important for the embassy, where both the cultural and
press officers are serving for the first time in public diplomacy positions.

Recommendation 5: Embassy Kampala should submit a public diplomacy implementation plan
to the Under Secretary for Public Diplomacy and Public Affairs. (Action: Embassy Kampala)


                                        8
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Budget and Grants

        The section with responsibility to manage the budget, post allotment, representation
funding, procurement, and grants and to liaise with the financial management office has no
trained employee. Section budget management has been haphazard, and the section must rely on
the financial management office.

       Informal Recommendation 4: Embassy Kampala should revise an existing locally
       employed staff member position in the public diplomacy section to include budget and
       grant management responsibilities and provide appropriate training.

        The section administered $773,000 in 56 grants from all sources in FY 2013. Given this
volume, the OIG team counseled section officers to consolidate small grants whenever feasible.
The grants files are in good order. The section has two warranted grants officers and two grants
officer representatives. Neither the cultural affairs officer nor the grants officers were entering
data into the online Grants Database Management System. The OIG team facilitated their initial
access and counseled section staff on input procedures for the State Assistance Management
System and for the Department’s Web-based grants management database regarding excluded
grant recipients and grants monitoring practices.

        Despite the recent growth in staff, the section does not monitor grants adequately. For
example, it does not register grants online. The newly certified grants officer representative,
position number 101669, does not have grants management responsibilities in her position
description. The position description of the cultural affairs assistant provides for less than 10
percent of workload for monitoring grants but 70 percent for handling logistics, for which
another newly hired employee also has responsibility. The OIG team’s review of the section’s
grants files found excessive charges for equipment and technical services, a result of inadequate
monitoring of grants.

Recommendation 6: Embassy Kampala should revise the position descriptions of the program
coordinator (position 101669) and the cultural affairs assistant (position 600063) to include
adequate monitoring and online recording of grants. (Action: Embassy Kampala)

Cultural Affairs

        The cultural affairs unit manages academic and cultural exchange programs, including an
active Fulbright exchange, Hubert H. Humphrey Fellows, and eight Ugandan teachers in the
international leaders in education program. During the inspection, 2 panels of 4 embassy
representatives each were interviewing 90 semifinalists for the 30 Uganda slots in the Young
Africa Leadership Initiative, a recent White House exchange priority.

       The section’s officers infrequently visit key contacts and institutions, and the section does
not have an outreach program to involve embassy personnel in speaking to Ugandan audiences.

       Informal Recommendation 5: Embassy Kampala should establish a missionwide
       speakers program for American employees to perform outreach to Ugandan audiences.

                                        9
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Media and Digital Outreach

       The media office monitors the five daily English-language national newspapers for
embassy and Washington readers. It monitors radio broadcasts, the primary source of news for
80 to 90 percent of Ugandans. The section produces two daily media summaries that meet end-
user needs. One is a general Ugandan news summary; the other news summary, prepared by an
LE staff member funded by DOD, specializes in security and defense issues.

       The embassy is actively involved in social media. Its Facebook page has more than
40,000 fans, up from 700 in 2011. The Ambassador posts on his Facebook page only about
Ugandan issues. The Ambassador has 33,755 fans, but 60 percent of them are from Nepal, his
former post, and only 24 percent are Ugandan. The embassy's Twitter feed reaches 21,900
followers with embassy announcements. The Ambassador has his own Twitter page, with 605
followers, which he uses to communicate U.S. policy. A technically polished YouTube video on
donations to a Muslim school had only 38 views. The OIG counseled the public affairs officer to
minimize the number of labor-intensive videos, and he agreed.

American Spaces

        The section maintains three American Spaces, including an active Information Resource
Center in the embassy with about 25 visitors per day. Most visitors come to the center to do
online research. The section also oversees American Corners in Fort Portale and Mbale. The
former site has thrived, but the latter has had management problems and last year failed to effect
physical upgrades for which it received a grant in FY 2013. The section is seeking a return of the
funding. For these reasons, the embassy is in the process of closing the facility and is searching
for a new partner.

Broadcasting Board of Governors

       The Broadcasting Board of Governors (BBG) employs a full-time regional marketing
representative in Kampala who promotes and supports Voice of America (VOA) programming in
Uganda, Burundi, South Sudan, and Rwanda. This contractor spends half his time in Uganda,
where BBG has 11 FM radio and 2 TV affiliates. BBG signed its latest Ugandan FM affiliate in
June 2013. His work in Uganda supports goal 3, Seize Targeted Growth Opportunities, of the
BBG Strategic Plan 2012–2016, Impact through Innovation. The Strategic Plan specifies adding
new FM affiliate partners in Africa. BBG broadcasts VOA radio programs in shortwave.
Between 10 and 20 percent of rural Ugandans cannot receive FM and rely on shortwave
transmitters to obtain news.

        BBG decided not to pursue a 24/7, U.S. Government-owned FM station in Uganda
because the media climate allows affiliation with local radio and TV stations. The OIG team
easily tuned in a VOA FM affiliate and confirmed the busy FM dial, which includes about 200
stations nationwide.

      The public affairs section was not satisfied with the level of communication with BBG
employees in Uganda. The OIG team clarified for the section the role of BBG personnel in
Uganda, as well as in Washington and Johannesburg, regarding programming and marketing.
                                               10
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Consular Affairs

       The consular section provides American citizens services, nonimmigrant visas, and
immigrant visas for intercountry adoptions. The section does not process other categories of
immigrant visas, except for a very limited number of special immigrant visas for embassy staff.
In FY 2013, the section processed 313 refugee/asylee relative petitions on behalf of the U.S.
Citizenship and Immigration Services. Consular staff communicates regularly with U.S. citizens,
including volunteer wardens throughout Uganda; a wide range of contacts in the host
government; other foreign missions; and hospitals, airlines, and other essential support services.

Visa Processing

        The consular section’s procedure for processing nonimmigrant visa applications is
inefficient. Applicants must present themselves at service windows at different times during the
interview process, and, in between, they sit and wait to be called. Without a working public
address system, consular officers have to telephone a receptionist in the waiting room to summon
an applicant to the interview window.

        The limited size and layout of the consular section’s office space also contribute to
inefficiencies. Consular personnel walk back and forth from service windows to their desks and
then back to the windows, carrying applicants’ documents. The embassy will begin a renovation
project soon to make better use of the limited office space, and the Bureau of Consular Affairs
has approved a new intercom system. The section could improve operational efficiency if it
streamlined its nonimmigrant visa processing in tandem with the planned facility renovations.

Recommendation 7: Embassy Kampala should analyze its nonimmigrant visa process to
improve efficiency of operation and reduce visa processing times. (Action: Embassy Kampala)

Crisis Management Planning

        The consular section chief estimates that approximately 75 percent of the 5,500 U.S.
citizens present in Uganda—both residents and visitors—are attached to missionary
organizations and a large proportion of the remaining 25 percent of U.S. citizens in Uganda are
attached to nongovernmental organizations. Both missionary and nongovernmental organizations
often have their own in-house crisis management plans that take advantage of the groups’ long-
term experience in the areas in which their personnel live and work. Consular personnel need to
be familiar with these organizations’ plans, to learn from them, and to identify how consular
section’s crisis plans can complement them. The OIG team counseled the consular section chief
to meet with missionary groups and nongovernmental organizations in Uganda to explain the
embassy’s crisis plans, review the organizations’ crisis preparations, and explore ways to
collaborate.

         The embassy has not informed the Bureau of Consular Affairs about its crisis plans. As a
result, the bureau’s Office of Crisis Management is not aware of the types of support the
embassy would need in the event of a crisis. The Bureau of Consular affairs underscores the
importance of consular managers providing regular risk assessments that identify likely crises,
needed consular services, and associated challenges.
                                               11
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 8: Embassy Kampala should provide the Bureau of Consular Affairs with a
crisis risk assessment. (Action: Embassy Kampala, in coordination with CA)

Intercountry Adoptions

        The consular section’s intercountry adoptions caseload is complex and growing rapidly.
In FY 2013, the section processed 285 adoption cases. It is essential that consular officers are
able to identify fraud associated with adoption cases to ensure the integrity of the process. The
consular chief has requested the assistant regional security officer-investigator (ARSO-I) focus
on fraud in adoption casework. A Bureau of Diplomatic Security program review of the ARSO-I
program, conducted in December 2013, recommended the ARSO-I focus attention on adoption
fraud.

        The ARSO-I visited Embassy Addis Ababa’s consular section in November 2013 to learn
how that section manages fraud in its much larger intercountry adoption caseload. In his trip
report, the ARSO-I proposed that Embassy Kampala replicate some of Embassy Addis Ababa’s
strategies in reviewing adoption cases for fraud. The consular chief, the ARSO-I, and the
regional security officer all agree that the ARSO-I should focus more attention on fraud in the
adoption caseload. They have not, however, developed a plan to direct the ARSO-I’s work to
adoptions.

Recommendation 9: Embassy Kampala should implement a written strategy for identifying and
countering fraud in the consular section’s intercountry adoption casework. (Action: Embassy
Kampala)




                                       12
                           SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


Resource Management
Financial and Human Resources

            Agency                 U.S.       U.S.     Foreign    Total     Total
                                  Direct-    Locally   National   Staff    Funding
                                   Hire     Employed    Staff              FY 2013
                                   Staff      Staff
Department of State
Diplomatic and Consular Posts         23           6         16      45     $2,379,300
International Cooperative and
Administrative Support Services       10          11        237    258      $9,702,600
Public Diplomacy                       3           1         12     16        $877,800
Diplomatic Security                    8           1         27     36      $6,374,337
Marine Security                       10                      3     13        $163,780
Representation                                                       0         $27,200
Overseas Buildings Operations                                        0      $2,041,981
Consular Affairs                                                              $217,990
Gift Fund Collections                                                          $30,577
Commercial Service Fees                                                         $1,955
Population, Refugees, and
Migration                                                                     $243,000
Peacekeeping Operations                                                     $1,225,226
International Narcotics and Law
Enforcement                             2                     1       3      $569,629
Department of Defense
Defense Attaché Office                  6                     1       7       $247,174
Office of Defense Cooperation           3          1          2       6   $129,000,000
Department of Justice
Federal Bureau of Investigation         2                             2      $150,000
President’s Emergency Plan for
AIDS Relief                             1          1          1       3     $1,183,286
U.S. Agency for International
Development                           52           4        116    172    $255,462,838
Other Foreign Assistance                                             0    $304,000,000
Peace Corps                             4                     3      7      $1,000,000
Centers for Disease Control and
Prevention                            20                    116    136      $8,455,611
Health and Human Services-
National Institutes of Health          1                      4      5       $838,000
Federal Aviation Administration        1                             1       $110,000
Department of the Treasury             1                      1      2       $110,000
Totals                               147          25        540    712    $724,412,284


                                     13
                         SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

General Services Office and Warehouse Facility

         The general services office and warehouse facility has only 47 desks for approximately
168 employees and therefore does not meet Bureau of Diplomatic Security standards. OIG
identified this deficiency in the 2007 inspection report. The facility consists of two contiguous
properties: the USAID trust building and warehouse and an embassy-leased building and
warehouse. Neither property meets OBO fire, safety, health, and environmental management
standards. The number of fire exit doors is also insufficient without a sprinkler system, fire
suppression system, or smoke detectors. Forty employees are crammed in office space suitable
for 20 employees in the USAID trust building, a part of the general services office and
warehouse facility. An eyewash stations was inoperable, and the facilities workshops lack
adequate ventilation. Some bathrooms and locker rooms are in poor condition and require
renovation. The 5 warehouses and 10 storage units have no climate control. Staff must wrap
inventory in plastic to prevent damage from the accumulation of dust and dirt, which is
ubiquitous, even indoors. Ten shipping containers and 20 generators are located outdoors; the
latter are unprotected.

       The motor pool unit operates out of the facility but has insufficient space for its 84
vehicles. The mechanics’ offices are in a storage container located inside the motor pool bay.
The motor pool bay is inadequate for the size of the fleet and is largely exposed. It has only one
oil-changing pit and no hydraulic lift for changing tires. The vehicle washing facilities are
inadequate. One fuel tank is located above ground and is unsecured. A layer of dust and dirt
covers many vehicles, machinery, and some auto parts. The 60 motor pool LE staff members are
located mostly in the facility.

         The embassy has taken steps to address some of these deficiencies but lacks adequate
funding. Since 2010, the embassy and OBO have not pursued leasing an alternative warehouse
facility or renovating the USAID government-owned part of the facility. The plan to construct a
new office building on the embassy compound will provide office space and additional common
areas but will not replace the existing warehouse. The OIG team advised the unit about obtaining
guidance and expertise for organizing its warehouses from the Bureau of Administration.

Recommendation 10: Embassy Kampala, in coordination with the Bureau of Overseas
Buildings Operations, should conduct a feasibility study and correct Embassy Kampala’s
warehousing deficiencies. (Action: Embassy Kampala, in coordination with OBO)

         The embassy has not explored all options available to provide alternate secure office
space for the 47 staff positions located at the general services office and warehouse facility.
Lacking an operational need for some of the management staff members to be located in the
facility, the section could realize increased efficiencies if these staff members worked in the
embassy compound, where customers are located. The embassy could lease an off-site space for
the Information Resource Center and use the on-site embassy Information Resource Center as
office space for embassy staff. Existing conference rooms in the chancery may also offer
potential office space. In addition, the embassy could relocate the Marine security guards into a
leased residence and repurpose the Marine house as office space.


                                       14
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 11: Embassy Kampala, in coordination with the Bureau of Overseas
Buildings Operations, should implement a space plan to move as many of the 47 staff positions
at the general services office and warehouse facility as possible onto the embassy compound and
leave only those desks at the facility for which an operational requirement exists. (Action:
Embassy Kampala, in coordination with OBO)

Management Operations

         In 2014, customer satisfaction fell, with 18 of 30 services scoring slightly below 4 on a
1–5 scale. Embassy management indicated the causes for this decline were inadequate ICASS
staffing in comparison to program growth and the 2-for-1 hiring restrictions (then in effect) that
had prevented the embassy from filling vacancies. During the embassy’s rapid growth in recent
years, only two new U.S. direct-hire ICASS positions were established. In the 2014 rightsizing
review and 2014 Mission Resource Request, the embassy identified a need to add three U.S
direct-hire staff positions in the management section: a deputy management officer, a deputy
facilities manager, and another assistant general services officer. The embassy also identified 3
new eligible family member positions, a community liaison office coordinator, an information
management resources assistant, and a rover assistant position, in addition to 14 new LE staff
positions. The OIG team concurs in the need for the three U.S. direct-hire positions but only if
the embassy can provide secure, suitable office space.

        The 7.5-acre embassy compound includes a chancery (occupied in 2001), an adjoining
USAID building, and a Marine security guard detachment house (both occupied in 2006). The
office space is functional and meets OBO and Bureau of Diplomatic Security standards but
provides insufficient space for all staff to be colocated on the new embassy compound.

        The embassy has complied with Department-USAID Joint Management Council
guidance that mandates consolidation of management services. USAID maintains separate
human resources, financial management, and information technology units because these cost
centers are exempt from the mandate. CDC, located 45 minutes away in Entebbe, also maintains
separate services, including motor pool, property management, and warehousing. Most agencies
have joined the furniture and appliance pool.

        One of the main objectives of the new management team is to develop universal
processes and standard operating procedures to ensure consistent application of rules and
regulations. Funding is generally sufficient for embassy operations. In some units, LE staff
members do not know how to use fully the Integrated Logistics Management System. The
ICASS council and ICASS budget committee both function in accordance with guidelines.

Hiring Freeze

        When the Department implemented the 2-for-1 hiring restrictions in April 2013, the
embassy had 35 vacant positions (8 eligible family member and 27 LE staff) because of turnover,
transition, and terminations. The embassy still has 20 vacant positions: 9 LE staff and 2 eligible
family member positions were used as sequestration offsets, which left 6 LE staff positions and 3
eligible family member positions vacant. Of the 20 vacant positions, 14 are ICASS LE staff

                                       15
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

positions, which need to be filled to maintain service standards. In March 2014, the Department
lifted the 2-for-1 hiring restriction, and the embassy plans to fill existing vacant positions.

Financial Management

        The OIG team found no anomalies in cashier operations, funds management, vouchering,
unliquidated obligations, or the suspense deposit account. During January 13–24, 2014, a
financial management rover, based in Dakar, Senegal, conducted a preinspection of the financial
management unit. The rover reported improvements in the unit’s operations since 2010, but
found cashiering discrepancies, which the embassy corrected. In March 2014, cashiering will
begin using Coast Cashiering and stop using an earlier cashiering system. The rover found some
documentation was missing in the official residence expense files, which the unit corrected.

Outstanding Travel Advances

        The financial management unit had 90 outstanding travel advances, although it had
closed many old travel advances dating back to 2010. The embassy issued a new travel policy in
2014, with strict deadlines for travel voucher submission and repayment of outstanding
advances. The policy allows for advances of lodging costs, with a pro forma invoice, and only 80
percent of meals and incidental expenses costs, down from 100 percent in the old policy. This
policy incentivizes travelers to settle their accounts promptly. In February 2014, the travel unit
initiated a new practice of notifying supervisors and heads of agency regarding overdue
employee vouchers.

Recommendation 12: Embassy Kampala should clear its remaining outstanding travel
advances. (Action: Embassy Kampala)

Representation Vouchers

         The embassy does not always follow Department guidelines found in 3 Foreign Affairs
Manual (FAM) 3240, Standardized Regulations 330 and 340, and 4 Foreign Affairs Handbook
(FAH)-3 H-311.2 for processing representational and official residence expenses. Consequently,
improper charges and deficiencies are present in recordkeeping and resource management. Guest
lists on vouchers do not reflect actual attendees, making per-capita cost calculation impossible,
while other vouchers appeared to combine expenses from separate events. Department
regulations require officers to manage official residence expenses staff schedules to minimize
overtime, including for representational events. For after-hour events, officers need to arrange
alternate work schedules to avoid overtime charges for household staff whenever possible. When
overtime is required, vouchers must detail the hourly rate and hours worked, rather than the lump
sum payments that vouchers reflect.

Recommendation 13: Embassy Kampala should adhere to Department of State regulations on
representation and official residence expenses and vouchers. (Action: Embassy Kampala)




                                       16
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Human Resources

       In 2013, the human resources unit updated the LE staff handbook and compensation plan.
The human resources unit adheres to Department performance management standards and
deadlines for work requirement statements, performance evaluations for direct-hire and LE staff,
and LE staff within-grade increases. Post allowance and differential reports are up to date.

Position Descriptions

        Approximately 13 percent of the LE staff members who responded to the OIG survey
said their position descriptions are inaccurate. Supervisors are required to check a box on each
supervised employee’s position description, indicating that it is accurate. According to 3 FAH-2
H-441, American supervisors are responsible for ensuring that positions under their direction are
accurately described. According to 3 FAH-2 H-443 the supervisor is responsible for keeping
position descriptions up to date, and the human resources officer, or other designated official, is
responsible for ensuring that the classifications of LE staff positions are kept current. The human
resources officer is also responsible for requesting amendments to position descriptions,
whenever existing descriptions are thought to be inaccurate, and with administering an annual
review of all positions in each organizational unit.

       Informal Recommendation 6: Embassy Kampala should issue an administrative notice
       outlining responsibility for employee position descriptions.

       Informal Recommendation 7: Embassy Kampala should implement measures to reduce
       overtime payments.

General Services

        The general services office manages the motor pool, personal property, housing,
procurement, and customs and shipping. Management has taken steps, through enhanced
supervision, oversight, and tracking, to improve the performance of the customs and shipping
unit. External factors, such as Ugandan import/export regulations and paper work requirements,
are beyond the control of the staff.

        Leased housing is adequate, administered equitably, and in accordance with cost and
space standards. The unit leases 117 properties, with a total annual rent of $3.8 million.
Management reconstituted the housing board to make the assignments process more transparent.

       The procurement unit partners well with other management units. All contracts included
Federal Acquisition Regulation clause 52.222-50, Combating Trafficking in Persons. The OIG
team’s review of some procurement actions showed LE staff members follow competition and
documentation regulations.




                                       17
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Real Property

Government-Owned Properties

        The chief of mission residence, acquired in 1955 for $71,714, is in fair condition but
requires renovation. The residence’s electrical and plumbing systems, as well as the roofing,
require replacement. A staff residence, acquired in 1966 for $71,429, is in good condition.

Personal Property Management

        The property management unit manages an inventory of $17.3 million. The FY 2013
certificate of inventory reconciliation reported shortages of $74,415 in nonexpendable
inventories and $9,995 in expendable inventories, which are below the Department’s 1-percent
threshold. Management attributes the shortage of nonexpendable items, in part, to staff
difficulties using the Integration Logistics Management System software and scanning
equipment. It plans to provide additional training to staff as it continues looking for the missing
items. The overages were also high.

        The general services officer, who is the designated accountable property officer, did not
conduct an annual property use survey in 2013, in accordance with 14 FAM 411.2-2(8). In 2013,
the office disposed of 729 items, with a cost of $861,987, and proceeds of sale of $248,876. The
property use survey avoids the stocking or ordering of unneeded inventory.

Recommendation 14: Embassy Kampala should conduct an annual property use survey in
accordance with Department of State regulations. (Action: Embassy Kampala)

       The accountable property officer does not conduct spot checks of nonexpendable and
expendable inventories, in accordance with 14 FAM 411.2-2 c. Such an internal control exists to
prevent theft and ensure an accurate accounting of inventory.

Recommendation 15: Embassy Kampala should conduct periodic spot checks of nonexpendable
and expendable inventories and maintain records of spot checks, in accordance with regulations.
(Action: Embassy Kampala)

       The property management unit has some property items in storage that are not protected,
in accordance with 14 FAH-1 H-418.2, from dust and environmental conditions that can cause
damage. The OIG team counseled the unit on safeguarding inventory.

Minimum Inventory Levels

       The OIG team inspected the warehouse and storage facilities and found many overstock
and obsolete items. Many boxes of old records had destroy dates of 2012 and 2013. The
Department provides guidance in 14 FAH-1 H-419 on maintaining minimum and maximum
inventory levels, computing future needs, and replenishment cycles.

Recommendation 16: Embassy Kampala should dispose of obsolete inventory in accordance
with Department of State regulations. (Action: Embassy Kampala)
                                               18
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Facilities Management

        OBO conducted fire and safety, health, and environmental management inspections in
2012. Guidance in 15 FAM 812.2 state that when OBO does not conduct a formal, annual
inspection and training visit, post must conduct a fire inspection survey. Similarly, 15 FAM 962
requires that the post occupational safety and health officer conduct an annual survey of all
nonwork and work areas. The embassy provided no support or records to show compliance with
these requirements, which are designed to protect staff from harmful situations. OBO has
scheduled an inspection of the facility.

Recommendation 17: Embassy Kampala should conduct fire inspections and safety, health, and
environmental management inspections in accordance with Department of State regulations.
(Action: Embassy Kampala)

Fire Extinguishers

         The OIG team checked fire extinguishers in the general services office and warehouse
facility and found fire extinguishers that had expired safety tags or were last checked in 2012.
According to 15 FAM 842, the embassy must visually inspect every fire extinguisher on a
monthly basis to ensure they are in operable condition and, at a minimum, service each
extinguisher annually. Inspectors must record inspection and maintenance dates, either on the
extinguisher inspection tag or electronically.

        In addition, the general services office uses household fire extinguishers designed for
office and warehouse facilities. According to 14 FAH-1 H-318.8-5, if the area is used for paper
storage, as is the case in the general services office and warehouse facility, the extinguisher
should be properly sized for the potential fire threat.

Recommendation 18: Embassy Kampala should inspect fire extinguishers in all embassy
offices and replace those that do not comply with Department of State regulations. (Action:
Embassy Kampala)

Solar Power

       Embassy Kampala makes minimal use of solar technology. Solar panels are used only to
heat and maintain water temperature. Given the climate, the OIG team believes that Embassy
Kampala could realize savings by increasing use of solar panels. For example, Embassy
Bujumbura estimates solar power generation saves the embassy $422,000 annually in fuel costs.

Recommendation 19: Embassy Kampala, in coordination with the Bureau of Overseas
Buildings Operations, should conduct an analysis to determine whether use of solar technologies
would be cost effective. (Action: Embassy Kampala, in coordination with OBO)

Information Management

       The information management unit effectively manages several large projects, including
an upgrade of the embassy’s fiber optic cable infrastructure and the consolidation and expansion
                                                19
                          SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

of bandwidth circuitry. It is also developing a plan to replace the substandard cable infrastructure
at the general services office and warehouse facility.

         The information programs officer position has been vacant since May 2013, and a
replacement is due to arrive in November 2014. Although the embassy has received some
temporary duty assistance, this staffing gap negatively affects the information programs center’s
ability to provide full customer support. The mailroom supervisor and mailroom manager
positions have been vacant since May 2013 and April 2012, respectively. As a result, the U.S.
direct-hire program staff helps to process the large volume of incoming mail and oversee the
copier maintenance contract, duties that detract from their regular work responsibilities.

        The OIG team counseled the information management officer on updating the
communications annex in the emergency action plan and on the use of maintenance logs for the
classified network system, records management, and contingency communications readiness.

Off-Site Backup Tape Storage

        Embassy Kampala has not instituted off-site backup media storage procedures for the
classified network. Per 12 FAM 629.2-9, posts should have an off-site storage location in an
approved and controlled facility to minimize the loss of data in an emergency.

Recommendation 20: Embassy Kampala should implement off-site backup tape storage for the
classified network system. (Action: Embassy Kampala)

Emergency Power Cutoff Switches

       During facility construction, no emergency power-off controls for the information
systems center and for the information programs center computer rooms were installed, as
required by 12 FAM 629.4-3. In an emergency, embassy staff may not be able to access the
computer rooms to shut off power.

Recommendation 21: Embassy Kampala, in coordination with the Bureau of Overseas
Buildings Operations, should install emergency power-off controls outside the computer server
rooms of the information systems center and information programs center. (Action: Embassy
Kampala, in coordination with OBO)

Recordkeeping and Files

       The embassy is not maintaining and retiring official records4 in accordance with 5 FAM
414.4. The embassy has not issued guidance and procedures for maintaining official records.

4
 Official records in 44 U.S.C. Ch. 33 § 3301 “includes all books, papers, maps, photographs, machine readable
materials, or other documentary materials, regardless of physical form or characteristics, made or received by an
agency of the United States Government under Federal law or in connection with the transaction of public business
and preserved or appropriate for preservation by that agency or its legitimate successor as evidence of the
organization, functions, policies, decisions, procedures, operations, or other activities of the Government or because
of the informational value of data in them.”

                                             20
                                 SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Embassy employees store official records on shared electronic drives, but the records are not
organized by year or according to traffic analysis by geography and subject or specified terms.
Good records management reduces vulnerabilities and enables the Department to perform its
functions and recover from a disaster.

Recommendation 22: Embassy Kampala, in coordination with the Bureau of Administration,
should implement procedures to maintain and retire official records in accordance with
Department of State records management standards. (Action: Embassy Kampala, in coordination
with A)

Information Systems Security

        The embassy is not performing all information systems security officer duties, such as
account monitoring and reviewing audit logs, as provided in 12 FAM 622.1-8, 12 FAM 622.5,
and 12 FAM 629.2-7. In addition, the appointed alternate information systems security officer is
not assisting with the required duties. The confidentiality, integrity, and availability of
Department information systems are critical to the embassy’s operations.

Recommendation 23: Embassy Kampala should conduct and document the required
information systems security officer system reviews. (Action: Embassy Kampala)

       Informal Recommendation 8: Embassy Kampala should require the alternate
       information systems security officer to assist periodically in system review
       responsibilities.

Radio Test Equipment

        The embassy uses its emergency radio networks to coordinate and broadcast information
during emergency, evacuation, or potentially dangerous situations. The embassy has assigned
these radios to all U.S. direct-hire employees in the mission. Per 5 FAH-2 H-741, the
information programs center is responsible for maintaining all associated equipment, including
residential and mobile antennas. The center lacks the necessary equipment to do so, including an
antenna analyzer. Inadequate tools could result in embassy personnel having inoperable radios
during an emergency.

Recommendation 24: Embassy Kampala should purchase necessary equipment, including an
antenna analyzer, to conduct antenna repair. (Action: Embassy Kampala)

General Services Office and Warehouse Facility Cable Infrastructure

        The unclassified systems local area network and telephone cable infrastructure at the
general services office and warehouse facility are in poor condition and do not meet 5 FAH-9
specifications for network cabling installation. Many of the patch panels, routers, and switches
are not located in locked cabinets, and the facility telephone switch is not in a controlled area that
meets 12 FAM 644.1 criteria. These vulnerabilities could compromise the integrity of U.S.
Government sensitive data or networks.

                                        21
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 25: Embassy Kampala, in coordination with the Bureau of Information
Resource Management and the Bureau of Overseas Buildings Operations, should upgrade the
entire local area network and telephone cable infrastructure at the general services office and
warehouse facility in conformance with Department of State regulations. (Action: Embassy
Kampala, in coordination with IRM and OBO)

Contingency Communications Tests

         Portable contingency communications assets are essential in the event of telephone and
telegraphic circuit outages or remote emergency field operations. The embassy performs monthly
tests of the three portable satellite terminals but does not check peripheral equipment such as
solar panels. According to 5 FAH-2 H-653.2, the embassy should conduct the range of tests to
ensure operational readiness. The LE staff lacks training on how to operate these peripheral
systems.

       Informal Recommendation 9: Embassy Kampala should train applicable locally
       employed staff members to operate the portable satellite terminals and associated
       equipment.

       Informal Recommendation 10: Embassy Kampala should perform monthly tests of
       all portable satellite terminals and associated contingency equipment.

After-Hours Computer Access

       The embassy is not restricting the LE staff’s after-hours network access per 12 FAM
622.1-6. After-hours restrictions help reduce system vulnerabilities.

Recommendation 26: Embassy Kampala should implement after-hours network access controls.
(Action: Embassy Kampala)




                                       22
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Quality of Life
        Kampala has a nice climate and good restaurants. Hardship factors include crime, traffic,
isolation, and a limited availability of goods. U.S. direct-hire employees receive a 20-percent
cost of living allowance, a 25-percent hardship differential, 2,500 pounds of consumables, and
one rest and recuperation trip for a 2-year assignment.

Community Liaison Office

        The community liaison office coordinator operates a robust and popular program. She
organizes many activities, briefings, events, and social outings that meet the needs of a large and
diverse mission community. She participates in the emergency action committee, country team,
housing board, and post employment committee. In late February 2014, the embassy also hired
an assistant to help the coordinator with program duties and responsibilities and the newsletter.

Schools

        U.S. direct-hire dependents attend four schools. Parents are generally satisfied with the
quality of education. The Ambassador appoints a representative to the Board of Directors of the
International School of Uganda, which is the recipient of a Department grant. Another embassy
officer and an eligible family member are elected members of the board.

Health Unit

        The health unit has sufficient resources and is in the process of filling two recent
vacancies. A Foreign Service health practitioner, an LE nurse, and an assistant/receptionist
provide medical services. An additional LE nurse position is vacant, as is a laboratory technician
position. A regional medical officer and a regional medical officer/psychiatrist, both based in
Nairobi, provide regional coverage. The unit also provides limited occupational health services to
LE staff.

American Employee Recreation Association

        In August 2013, the embassy closed the association because of insolvency, began the
liquidation process, and sold the association’s remaining assets.




                                       23
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Management Controls
       The annual chief of mission management controls statement of assurance, signed on July
2013, stated that adequate controls were in place, with no material weaknesses or reportable
conditions. However, the OIG team identified serious long-standing weaknesses at the general
services office and warehouse facility in the areas of security, fire, safety, health, and
environmental management.

Recommendation 27: Embassy Kampala should include long-standing weaknesses at the
general services office and warehouse facility in its 2014 chief of mission statement of assurance
and address the short- and long-term steps taken to resolve those vulnerabilities. (Action:
Embassy Kampala)




                                       24
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: Embassy Kampala, in coordination with the Bureaus of Overseas
Buildings Operations and Diplomatic Security, should cap U.S. direct-hire positions at the
existing level and avoid a net increase until it provides suitable and secure workspace or obtains
the appropriate waivers. (Action: Embassy Kampala, in coordination with OBO and DS)

Recommendation 2: Embassy Kampala should require an employee in each section of the
embassy to take Foreign Service Institute course PK247, Contact Database Training, and to share
responsibility for managing the contact database. (Action: Embassy Kampala)

Recommendation 3: Embassy Kampala should reassess portfolio assignments in the
political/economic section and establish clear supervisory arrangements for its locally employed
staff members. (Action: Embassy Kampala)

Recommendation 4: The Office of the Global AIDS Coordinator, in coordination with the
Bureau of Human Resources and Embassy Kampala, should convert the President’s Emergency
Plan for AIDS Relief coordinator to a direct-hire position. (Action: S/GAC, in coordination with
DGHR and Embassy Kampala)

Recommendation 5: Embassy Kampala should submit a public diplomacy implementation
plan to the Under Secretary for Public Diplomacy and Public Affairs. (Action: Embassy
Kampala)

Recommendation 6: Embassy Kampala should revise the position descriptions of the program
coordinator (position 101669) and the cultural affairs assistant (position 600063) to include
adequate monitoring and online recording of grants. (Action: Embassy Kampala)

Recommendation 7: Embassy Kampala should analyze its nonimmigrant visa process to
improve efficiency of operation and reduce visa processing times. (Action: Embassy Kampala)

Recommendation 8: Embassy Kampala should provide the Bureau of Consular Affairs with a
crisis risk assessment. (Action: Embassy Kampala, in coordination with CA)

Recommendation 9: Embassy Kampala should implement a written strategy for identifying
and countering fraud in the consular section’s intercountry adoption casework. (Action: Embassy
Kampala)

Recommendation 10: Embassy Kampala, in coordination with the Bureau of Overseas
Buildings Operations, should conduct a feasibility study and correct Embassy Kampala’s
warehousing deficiencies. (Action: Embassy Kampala, in coordination with OBO)

Recommendation 11: Embassy Kampala, in coordination with the Bureau of Overseas
Buildings Operations, should implement a space plan to move as many of the 47 staff positions
at the general services office and warehouse facility as possible onto the embassy compound and
leave only those desks at the facility for which an operational requirement exists. (Action:
Embassy Kampala, in coordination with OBO)

                                       25
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Recommendation 12: Embassy Kampala should clear its remaining outstanding travel
advances. (Action: Embassy Kampala)

Recommendation 13: Embassy Kampala should adhere to Department of State regulations on
representation and official residence expenses and vouchers. (Action: Embassy Kampala)

Recommendation 14: Embassy Kampala should conduct an annual property use survey in
accordance with Department of State regulations. (Action: Embassy Kampala)

Recommendation 15: Embassy Kampala should conduct periodic spot checks of
nonexpendable and expendable inventories and maintain records of spot checks, in accordance
with regulations. (Action: Embassy Kampala)

Recommendation 16: Embassy Kampala should dispose of obsolete inventory in accordance
with Department of State regulations. (Action: Embassy Kampala)

Recommendation 17: Embassy Kampala should conduct fire inspections and safety, health,
and environmental management inspections in accordance with Department of State regulations.
(Action: Embassy Kampala)

Recommendation 18: Embassy Kampala should inspect fire extinguishers in all embassy
offices and replace those that do not comply with Department of State regulations. (Action:
Embassy Kampala)

Recommendation 19: Embassy Kampala, in coordination with the Bureau of Overseas
Buildings Operations, should conduct an analysis to determine whether use of solar technologies
would be cost effective. (Action: Embassy Kampala, in coordination with OBO)

Recommendation 20: Embassy Kampala should implement off-site backup tape storage for
the classified network system. (Action: Embassy Kampala)

Recommendation 21: Embassy Kampala, in coordination with the Bureau of Overseas
Buildings Operations, should install emergency power-off controls outside the computer server
rooms of the information systems center and information programs center. (Action: Embassy
Kampala, in coordination with OBO)

Recommendation 22: Embassy Kampala, in coordination with the Bureau of Administration,
should implement procedures to maintain and retire official records in accordance with
Department of State records management standards. (Action: Embassy Kampala, in coordination
with A)

Recommendation 23: Embassy Kampala should conduct and document the required
information systems security officer system reviews. (Action: Embassy Kampala)

Recommendation 24: Embassy Kampala should purchase necessary equipment, including an
antenna analyzer, to conduct antenna repair. (Action: Embassy Kampala)



                                      26
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 25: Embassy Kampala, in coordination with the Bureau of Information
Resource Management and the Bureau of Overseas Buildings Operations, should upgrade the
entire local area network and telephone cable infrastructure at the general services office and
warehouse facility in conformance with Department of State regulations. (Action: Embassy
Kampala, in coordination with IRM and OBO)

Recommendation 26: Embassy Kampala should implement after-hours network access
controls. (Action: Embassy Kampala)

Recommendation 27: Embassy Kampala should include long-standing weaknesses at the
general services office and warehouse facility in its 2014 chief of mission statement of assurance
and address the short- and long-term steps taken to resolve those vulnerabilities. (Action:
Embassy Kampala)




                                       27
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: Embassy Kampala should establish criteria for reporting
messages requiring the approval of the Ambassador or deputy chief of mission and delegate
approval authority to section heads for other reports.

Informal Recommendation 2: Embassy Kampala should create a reporting plan based upon its
Integrated Country Strategy and the interests of Washington consumers.

Informal Recommendation 3: Embassy Kampala should establish written, post-specific Leahy
vetting procedures and clear them with relevant Department of State offices.

Informal Recommendation 4: Embassy Kampala should revise an existing locally employed
staff member position in the public diplomacy section to include budget and grant management
responsibilities and provide appropriate training.

Informal Recommendation 5: Embassy Kampala should establish a missionwide speakers
program for American employees to perform outreach to Ugandan audiences.

Informal Recommendation 6: Embassy Kampala should issue an administrative notice
outlining responsibility for employee position descriptions.

Informal Recommendation 7: Embassy Kampala should implement measures to reduce
overtime payments.

Informal Recommendation 8: Embassy Kampala should require the alternate information
systems security officer to assist periodically in system review responsibilities.

Informal Recommendation 9: Embassy Kampala should train applicable locally employed
staff members to operate the portable satellite terminals and associated equipment.

Informal Recommendation 10: Embassy Kampala should perform monthly tests of
all portable satellite terminals and associated contingency equipment.




                                      28
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                        Name Arrival Date
Ambassador                                     Scott H. DeLisi      08/12
Deputy Chief of Mission                      Patricia Mahoney       08/13
Chiefs of Sections:
  Management                                Carol-Anne Chang        08/13
  Consular                                     Amy Lorenzen         08/13
  Political/Economic                         Michael Newbill        07/12
  Public Affairs                                   Dan Travis       08/11
  Regional Security                            William Chang        08/13
Other Agencies:
  Department of Defense
  Defense Attaché/Senior
  Defense Official                       Col. Patrick Anderson      06/13
  Office of Security
  Cooperation                       Col. William "Chris" Wyatt      07/13
  U.S. Army Medical Research
  Institute of Infection Diseases              Monica Millard       09/05
  Centers for Disease Control
  and Prevention                               Tadesse Wuhib        12/11
  Justice                                              Vacant
  Peace Corps                                  Loucine Hayes        07/11
  Department of the Treasury                   Anne Schwartz        07/13
  Federal Aviation
  Administration                                Arnold Roholt       12/11
  U.S. Agency for International                                     07/12
  Development                                     Leslie Reed




                                       29
                           SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
ARSO-I           Assistant regional security officer-investigator

BBG              Broadcasting Board of Governors

CDC              Centers for Disease Control and Prevention

DCM              Deputy chief of mission

DOD              U.S. Department of Defense

FAH              Foreign Affairs Handbook

FAM              Foreign Affairs Manual

FAST             First and second tour

ICASS            International Cooperative Administrative Support Services

LE               Locally employed

NSDD-38          National Security Decision Directive 38

OBO              Bureau of Overseas Buildings Operations

OIG              Office of Inspector General

PEPFAR           President's Emergency Plan for AIDS Relief

USAID            The U.S. Agency for International Development’s

VOA              Voice of America




                            30
                SENSITIVE BUT UNCLASSIFIED
 SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

         CONTACT THE
 OFFICE OF INSPECTOR GENERAL
            HOTLINE
      TO REPORT ILLEGAL
   OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
      Arlington, VA 22219




 SENSITIVE BUT UNCLASSIFIED
